Sarah Van Hoey
P.O. Box 224
Lenoir City, TN 37771
February 18, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Steven T. Wolmer and Sarah I/. Wakner v. Commissioner ofInternal Revenue
No. 19 488
Petitionefs Reply Brief
RULE 29(d) DECLARATION OF SERVICE

Dear Mr. Harris:
I, Sarah Van I Ioey (ﬂ<a Sarah Waltner), one of the petitioners in the above stated matter,
declare that on February 18, 2020, I caused the Respondent Commissioner of Internal Revenue
to be served, pursuant to Rule 29.4(a), by depositing into the U.S. Mail, postage pre paid, three
copies of Petiticnefs Reply Brief to counsel for the Commissioner:
Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Ave, N. W., Room 5614
Washington, DC 20530 0001
(202) 514 2217
SupremeCtBriefs@usdoj .gov
Cormselfor the Commissioner

In accordance with Rule 29.5 of the Rules of the United States Supreme Court, I certify
that all parties required to be served in this matter have been served.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
Executed on February 18, 2020.

Sarah Van I Ioey

I I

